U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Anthony Sistrunk v. United States, No. 20-7889
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 21, 2021.
The government’s response is now due, after one extension, on July 1, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 30, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner and counsel for the other respondents do not oppose this further
extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7889
SISTRUNK, ANTHONY
USA

DANIEL M. MYSHIN
4800 LINGLESTOWN ROAD
SUITE 305
HARRISBURG, PA 17112-9507
717-541-5451

